Audit Report




OIG-12-078
INFORMATION TECHNOLOGY: Sufficient Protections Were In
Place for Departmental Offices’ Network and Systems
September 14, 2012




This report has been reissued to correct the report number from
OIG-12-073 to OIG-12-078.



Office of
Inspector General
Department of the Treasury
Contents

Audit Report
Results in Brief ..............................................................................................       1

Background .................................................................................................          2

Findings and Recommendations .......................................................................                  3

        Some DO LAN Devices Were Configured with Insecure Default Usernames
        and Passwords .....................................................................................           3
        Recommendation ..................................................................................             4

        Some DO LAN Servers Were Missing the Latest Service Packs or Running
        Obsolete Operating System ....................................................................                5
        Recommendations.................................................................................              6

        Weaknesses Were Found in Physical Security Practices at DO Buildings ......                                   6

Appendices

    Appendix     1:       Objectives, Scope, and Methodology ....................................                    9
    Appendix     2:       Management Response .......................................................               10
    Appendix     3:       Major Contributors to This Report .........................................               13
    Appendix     4:       Report Distribution ..............................................................        14

Abbreviations

    DO                    Departmental Offices
    CIO                   Chief Information Officer
    LAN                   Local Area Network
    SP                    Service Pack
    UPS                   Uninterruptable power supply
    IT                    Information Technology




                          Sufficient Protections Were In Place for Departmental Offices’ Network                  Page i
                          and Systems (OIG-12-078)
This Page Intentionally Left Blank
                                                                                            Audit
OIG
The Department of the Treasury
                                                                                            Report
Office of Inspector General

                       September 14, 2012

                       Robyn East
                       Deputy Assistant Secretary for Information Systems and
                         Chief Information Officer

                       This report represents the result of our audit of network and
                       systems security at the Departmental Offices (DO). Our overall
                       objective was to determine whether sufficient protections
                       existed to prevent intrusions into DO’s network and systems.
                       Specifically, we performed vulnerability assessments and
                       penetration tests of DO’s local area network (LAN), as
                       necessarily limited by DO’s operational needs and sensitivity of
                       DO LAN’s critical mission.

                       To accomplish our objective, we performed a series of internal
                       vulnerability assessments and attempted penetration tests on
                       selected DO LAN desktops, servers, equipment, and
                       infrastructure devices. We also tested the physical security of
                       Treasury facilities, performed social engineering testing by email
                       phishing, 1 and conducted remote access security testing. In
                       accordance with the agreed upon Rules of Engagement with the
                       Department, we excluded a number of systems on the DO LAN
                       and test procedures that could have adversely affected
                       operations and resulted in denial of service attacks.

                       We performed our fieldwork in Washington, DC, from December
                       2011 through April 2012. The audit was performed in
                       accordance with generally accepted government auditing
                       standards. Our objectives, scope, and methodology are
                       described in more detail in appendix 1.

Results in Brief
                       We determined that DO had sufficient protections in place for
                       its LAN. We did not find any critical vulnerabilities on the

1
  Phishing is an e-mail fraud method in which the perpetrator sends out legitimate-looking e-mail in
an attempt to gather information from recipients.


                       Sufficient Protections Were In Place for Departmental Offices’ Network      Page 1
                       and Systems (OIG-12-078)
             desktops and servers tested. In addition, DO’s email systems
             prevented our email phishing attacks from being executed
             successfully. However, we did identify weaknesses that should
             be remediated to strengthen the security protection for DO LAN.
             Specifically, we found some DO LAN devices were configured
             with insecure default usernames and passwords. We also noted
             a number of DO LAN servers were missing the latest service
             packs or running obsolete operating systems. Lastly, we
             identified weaknesses in physical security practices at Treasury
             buildings, which were quickly addressed after being identified.

             We are making three recommendations to the Deputy Assistant
             Secretary for Information Systems and Chief Information Officer
             (CIO) to address these findings. With regard to the weaknesses
             in physical security practices, we are not making any specific
             recommendations at this time because after bringing it to
             management’s attention, the matter was promptly addressed
             and adequately resolved during the course of our audit.

             In a written response to a draft copy of this report, the Treasury
             CIO agreed with our findings and recommendations and
             provided corrective action plans (see appendix 2). Treasury’s
             planned and reported corrective actions are responsive to the
             intent of our recommendations.

Background
             The Federal Information Security Management Act, Title III of
             the E-Government Act of 2002, requires each federal agency’s
             information security program to provide information security for
             the information and information systems that support the
             operations and assets of the agency. The program should
             include periodic assessments of the risk and magnitude of the
             harm that could result from the unauthorized access, use,
             disclosure, disruption, modification or destruction of information
             and information systems that support the operations and assets
             of the agency. Specifically, agencies are required to perform
             periodic testing and evaluation of management, operational, and
             technical controls of information systems depending on risks;
             and institute a process for planning, implementing, evaluating
             and documenting remedial action to address any deficiencies or
             exploits.
             Sufficient Protections Were In Place for Departmental Offices’ Network   Page 2
             and Systems (OIG-12-078)
                      The Department of the Treasury is organized into two major
                      components: DO and the operating bureaus. DO is primarily
                      responsible for the formulation of policy and management of the
                      Department of the Treasury as a whole, while the operating
                      bureaus and offices carry out the specific operations assigned
                      to Treasury.

Findings and Recommendations

Finding 1             Some DO LAN Devices Were Configured with Insecure
                      Default Usernames and Passwords

                      As part of our network and system security assessment of the
                      DO LAN, we performed network scans to determine the types,
                      names, Internet Protocol addresses, 2 and potential
                      vulnerabilities of systems to test. Using the information
                      gathered from our scans, we found that two printers, one
                      uninterruptible power supply (UPS), and a tape backup device
                      were configured with manufacturer preset default usernames
                      and passwords.

                      Using the manufacturer preset default usernames and
                      passwords, we were able to successfully gain administrative
                      privileges to these devices. On both printers, we gained
                      administrative privileges by connecting to their web interface
                      without providing any username or password, also known as an
                      anonymous login. We also gained administrative privileges to a
                      UPS device and tape backup device by connecting to their web
                      interface using the default usernames and passwords.

                      DO LAN System Security Plan, v1.4, dated June 29, 2011,
                      states that DO has implemented Authenticator Management
                      (Identification and Authentication Control). Furthermore,
                      according to National Institute of Standards and Technology
                      Special Publication 800-53, Revision 3, “Recommended
                      Security Controls for Federal Information Systems,” requires
                      organizations to manage information system authenticators for

2
  An Internet Protocol address is a unique number that every device connected to the network or
Internet is assigned.

                      Sufficient Protections Were In Place for Departmental Offices’ Network      Page 3
                      and Systems (OIG-12-078)
                      users and devices by changing default content of authenticators
                      upon installation.

                      By leaving the default usernames and passwords unchanged,
                      anyone with internal network access could gain unauthorized
                      access to printers and potentially use them as a platform to
                      launch attacks against other systems connected to the DO LAN,
                      install malicious firmware 3 on the printer, access any document
                      sent to the printers, and flood the printers with print jobs.
                      Similarly, an attacker could login to cause damage and/or loss
                      of power to the UPS and any systems attached to it, causing
                      potential loss of data. If a system attached to the UPS is in the
                      middle of writing data when the attacker cut the power, the
                      system may not be able to gracefully shutdown, and the data
                      being written may be lost and/or corrupted. In addition, the
                      attacker could alter the power settings on the UPS causing the
                      device to suffer damage including, but not limited to, sparks,
                      smoke, and fire. Lastly, using these default logins, unauthorized
                      users could compromise tape backup devices, including
                      changing the tape backup schedule, moving loaded tapes to
                      unexpected locations, causing data to be overwritten, or
                      installing malicious firmware.

                      Based on our Rules of Engagement, we did not attempt to
                      perform the above actions to avoid adverse impact such as
                      interruption of services or shutdown of these devices.

                      Recommendation

                      We recommend that the CIO ensure that default user names
                      and passwords on all devices be changed and anonymous login
                      be disabled.

                      Management Response

                      Treasury concurred with this recommendation. Treasury stated
                      that the identified devices have been addressed to ensure that
                      any default user name or password has been changed. Treasury

3
 Firmware is a software program or set of instructions programmed on a hardware device. It
provides the necessary instructions for how the device communicates with the other computer
hardware.

                      Sufficient Protections Were In Place for Departmental Offices’ Network   Page 4
                      and Systems (OIG-12-078)
            will update its procedures for installing peripheral equipment to
            ensure that no default user names or passwords are left on
            peripheral devices during the installation process. In addition,
            Treasury will also conduct a complete review of existing
            peripheral equipment to ensure that all web enabled devices
            have had manufacturer presets disabled. A corrective action
            plan will be developed and implemented by September 28,
            2012.

            OIG Comment

            Management’s reported and planned corrective actions are
            responsive to our recommendation.

Finding 2   Some DO LAN Servers Were Missing the Latest
            Service Packs or Running Obsolete Operating System

            From our scans, we found some servers on DO LAN were
            missing the most up-to-date service packs (SP) or were running
            obsolete operating system software. Specifically, we found:

                •   15 servers were running Windows 2008 R2, SP 0. The
                    current version is SP 1, released on February 22, 2011.

                •   4 servers were running Windows 2008, SP 1. The
                    current version is SP 2, released on April 29, 2009.

                •   2 servers were running Windows 2000. This operating
                    system is no longer supported by Microsoft as of July 13,
                    2010.

            National Institute of Standards and Technology Special
            Publication 800-53, Revision 3, requires that the organization to
            promptly install security-relevant software updates (e.g.,
            patches, service packs, and hot fixes).

            Servers without the latest service packs may not have the most
            recent patches necessary to fix known software vulnerabilities,
            while servers running unsupported operating systems do not
            receive any official patches at all. As a result, the vulnerabilities
            from these missing patches may leave DO servers susceptible

            Sufficient Protections Were In Place for Departmental Offices’ Network   Page 5
            and Systems (OIG-12-078)
            to internal or external attacks which could lead to unauthorized
            access or compromise of Treasury’s sensitive data.

            Recommendations

            We recommend that the CIO do the following:

            1. Test and install the latest service packs for all servers, as
               appropriate.

            Management Response

            Treasury concurred with this recommendation. Treasury stated
            that, as of August 31, 2012, the identified systems have had
            the latest service packs installed.

            OIG Comment

            Management’s reported corrective action is responsive to our
            recommendation.

            2. Upgrade servers running obsolete operating systems to a
               supported version.

            Management Response

            Treasury concurred with this recommendation. Treasury will
            retire or upgrade all servers running on old operating systems. It
            is anticipated that this corrective action will be implemented by
            March 30, 2013.

            OIG Comment

            Management’s planned corrective action is responsive to our
            recommendation.

Finding 3   Weaknesses Were Found in Physical Security Practices
            at DO Buildings

            We found weaknesses in the physical security practices at a DO
            facility that allowed us unauthorized access into Treasury
            buildings. Specifically, we were able to bypass security
            Sufficient Protections Were In Place for Departmental Offices’ Network   Page 6
            and Systems (OIG-12-078)
procedures on two occasions. An incident occurred at a DO
building where we gained entry without being challenged by the
officer on post. Another incident occurred where we found no
officer at the entrance. Although we possess valid credentials,
we were able to gain entry into the building without using the
credentials. The Office of Security Programs was notified about
this issue, and it was resolved promptly. Subsequently, on
several occasions, we retested DO LAN physical security
controls and found that the deficiencies had been addressed.
Therefore, we are not making a recommendation at this time.

The DO LAN System Security Plan specifies the controls that
should be in place for physical security. Such controls may
include the use of guards, identification badges, or entry
devices such as key cards or biometrics. According to this
policy, employees entering into Treasury facilities are required
to display their Treasury badge.

DO P-910, Department of the Treasury Departmental Offices
Information Technology Security Policy Handbook v2.0, dated
January 1, 2012, requires controls to be in place at all times to
prevent unauthorized individuals from accessing DO data and
system components. Specifically, individuals must have their
identification checked and submit to a reasonable inspection in
accordance with Treasury Directive Publication 15-71, Treasury
Security Manual, Chapter V section 1, updated June 17, 2011,
before being granted access to the facility.

As previously mentioned, the matter was promptly addressed
and adequately resolved. Accordingly, we are not making a
recommendation at this time.




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 7
and Systems (OIG-12-078)
                                   ******

I would like to extend my appreciation to the CIO and to the DO
Information Technology (IT) staff for the cooperation and
courtesies extended to my staff during the audit. If you have
any questions, please contact me at (202) 927-5171 or
Farbod Fakhrai, IT Audit Manager, at (202) 927-5841. Major
contributors to this report are listed in appendix 4.


/s/

Tram Jacquelyn Dang
Audit Director




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 8
and Systems (OIG-12-078)
Appendix 1
Objectives, Scope and Methodology



The overall objective of this audit was to determine whether
sufficient protections existed to prevent intrusions into
Treasury’s Departmental Office (DO) network and systems. This
audit was included in the Office of Inspector General Annual
Plan for 2012.

To accomplish our objective, we performed our fieldwork in
Washington, DC, from December 2011 through May 2012. We
performed a series of internal vulnerability assessments and
attempted penetration tests on selected DO Local Area Network
(LAN) desktops, servers, equipment, and infrastructure devices.
We also tested the physical security of Treasury facilities,
performed social engineering testing by email phishing, and
conducted remote access security testing. In accordance with
the agreed upon Rules of Engagement with the Department, we
excluded a number of systems on the DO LAN and test
procedures that could have adversely affected operations and
resulted in denial of service attacks. Our tests were performed
during off-peak hours to avoid unintended disruption to the
network.

We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit
objectives.




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 9
and Systems (OIG-12-078)
Appendix 2
Management Response




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 10
and Systems (OIG-12-078)
Appendix 2
Management Response




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 11
and Systems (OIG-12-078)
Appendix 2
Management Response




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 12
and Systems (OIG-12-078)
Appendix 3
Major Contributors to This Report




Office of Information Technology (IT) Audits

Tram J. Dang, Audit Director
Farbod Fakhrai, IT Audit Manager
Larissa Klimpel, Auditor-in-Charge
Kevin Mfume, IT Specialist
Mitul Patel, IT Specialist
Don’te Kelley, IT Specialist
Christen Stevenson, Referencer




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 13
and Systems (OIG-12-078)
Appendix 4
Report Distribution




Department of the Treasury

    Office of the Chief Information Officer
    Office of Security Programs
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of Management and Budget

    Office of Inspector General Budget Examiner




Sufficient Protections Were In Place for Departmental Offices’ Network   Page 14
and Systems (OIG-12-078)
